BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Supplemental Brief for Petitioner in 19-1135,
Dignity Health di b I a Mercy San Juan Medical Center
v. Evan Minton, was sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service, and e-mail to the following parties listed
below, this 21st day of June, 2021:
Amanda Chloe Goad
American Civil Liberties Union Foundation of
Southern California
1313 West 8th Street
Los Angeles, CA 90017
(213) 977-5218
agoad@aclusocal.org

Counsel for Respondent
Jeffrey M. Harris
Counsel of Record
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22201
(703) 243-9423
jeff@consovoymccarthy.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 21, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

l r/-4 r/ 2,,

k,.Public
[seal]

AMY TRIPLETI MORG/\1,J

Attorney at Law
Notary Public, State ot On1t;
My Commission Has No Exp1r2.uo1,
Date. Section 147.03 O.R.C.

